USCA4 Appeal: 19-4344

Doc: 37

Filed: 02/11/2020

Pg:1of9

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-4344
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DESMOND LITTLEJOHN,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Norfolk. Rebecca Beach Smith, Senior District Judge. (2:18-cr-00119-RBS-LRL-l)
Submitted: January 31, 2020

Decided: February 11, 2020

Before NIEMEYER, THACKER, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Laura P. Tayman, LAURA P. TAYMAN, PLLC, Newport News, Virginia, for Appellant.
G. Zachary Terwilliger, United States Attorney, Alexandria, Virginia, William B. Jackson,
Assistant United States Attorney, William D. Muhr, Assistant United States Attorney,
OFFICE OF THE UNITED STATES ATTORNEY, Norfolk, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 19-4344

Doc: 37

Filed: 02/11/2020

Pg:2of9

PER CURIAM:
Desmond Littlejohn was convicted after a jury trial of conspiracy to commit Hobbs
Act robbery, in violation of 18IJ.S;C. § 1951(aV/20181 (count 1), Hobbs Act robbery, in
violation of 18 TJ.S.C. §§ 2. 1951 tat (2018) (count 2), and using, carrying, and brandishing
a firearm during and in relation to the crime of violence set forth in count 2, in violation of
18 TJ.S.C. §§ 2. 924tcY1 YAYiil (2018) (count 3). The district court sentenced him to
concurrent terms of 105 months’ imprisonment on counts 1 and 2 and an 84-month
consecutive term on count 3, for a total prison term of 189 months. Littlejohn appeals,
arguing that Hobbs Act robbery does not qualify as a predicate crime of violence under
18 TJ.S.C. S 924fcL the evidence is insufficient to support his convictions, the district court
erred in admitting DNA evidence, he was prejudiced by the erroneous admission of opinion
testimony from witness Katherine Gavin, and the district court erred in assigning him
criminal history points under U.S. Sentencing Guidelines Manual §4A 1.1(e) (2018).
We affirm.
Littlejohn contends that his conviction on count 3 for brandishing a firearm during
and in relation to a crime of violence should be set aside because Hobbs Act robbery does
not qualify as a crime of violence under the force clause of the crime of violence definition
in 18 TJ.S.C. § 924(cY3\1 Littlejohn, however, never argued in the district court that

1 A violation of 18 TJ.S.C. S 924fcY1 YAYiil arises when a defendant brandishes a
firearm during and in relation to a “crime of violence.” Subsection (c)(3) defines the term
“crime of violence” as including a felony offense that “has as an element the use, attempted
use, or threatened use of physical force against the person or property of another.”
Id. § 924(c)(3)(A). This section is known as the § 924(c) force clause. United States v.
(Continued)
2

USCA4 Appeal: 19-4344

Doc: 37

Filed: 02/11/2020

Pg:3of9

Hobbs Act robbery does not qualify as a § 924(c) predicate crime of violence. We thus
may vacate, the brandishing conviction at count 3 only if Littlejohn “satisfies] plain error
review.” United States v. McNeal, 818 F.3d 141. 151 (4th Cir. 2016). To prevail under
the plain error standard, Littlejohn “must show (1) an error that (2) was clear or obvious,
(3) affects substantial rights, and (4) seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” United States v. Walker, 934 F.3d 375. 378 (4th Cir.
2019) (internal quotation marks and brackets omitted).
As Littlejohn acknowledges, “Hobbs Act robbery constitutes a crime of violence
under the force clause of [18 U.S.C. § ]924(c).” United States v. Mathis, 932 F.3d 242,
266 (4th Cir.), cert, denied, Nos. 19-6423,19-6424,2019 WL 6689801.2019 WL 6689802
(U.S. Dec. 9, 2019). His challenge to count 3 is thus foreclosed by Mathis, see WorldFuel
Servs. Trading, DMCC v. Hebei Prince Shipping Co. , 783 F.3d 507. 523-24 (4th Cir. 2015)
(“A panel of this court cannot overrule, explicitly or implicitly, the precedent set by a prior
panel of this court.” (internal quotation marks and brackets omitted)), and fails at the first
step of plain error review.
Next, Littlejohn contends that the evidence is insufficient to support his convictions.

Fuertes, 805 F.3d485.498 (4th Cir. 2015). Subsection (c)(3) of § 924 also defines a crime
of violence as a felony offense “that by its nature, involves substantial risk that physical
force against the person or property of another may be used in the course of committing
the offense.” 18 U.S.C. § 924tc¥3¥Bl. This section is known as the § 924(c) residual
clause. Fuertes, 805 F.3dat 498. The § 924(c) residual clause is unconstitutionally vague.
United States v. Davis, 139 S. Ct. 2319. 2336 (2019); United States v. Simms, 914 F.3d
229. 236-37. 246. 253 (4th Cir.) (en banc), cert, denied, 140 S. Ct. 304 (2019).
3

USCA4 Appeal: 19-4344

Doc: 37

Filed: 02/11/2020

Pg:4of9

“A defendant who challenges the sufficiency of the evidence [to support his
convictions] faces a heavy burden.” United States v. Small, 944 F.3d 490. 499 (4th Cir.
2019) (internal quotation marks omitted). This court “must sustain a guilty verdict if,
viewing the evidence in the light most favorable to the prosecution, the verdict is supported
by substantial evidence.” United States v. Burfoot, 899 F.3d 326. 334 (4th Cir. 2018).
“Substantial evidence is evidence that a reasonable finder of fact could accept as adequate
and sufficient to support a conclusion of a defendant’s guilt beyond a reasonable doubt.”
United States v. Edlind, 887 F.3d 166. 172 (4th Cir.) (internal quotation marks omitted),
cert, denied, 139 S. Ct. 203 (2018). Because Littlejohn never moved below for a judgment

fi

of acquittal, we review his challenge for plain error. United States v. Wallace, 515 F.3d
327. 331-32 (4th Cir. 2008).
Littlejohn argues that, without DNA evidence admitted in his case, the evidence was
insufficient to demonstrate he committed all three offenses. However, when reviewing for >
sufficiency of the evidence, “a reviewing court must consider all of the evidence admitted
by the trial court, regardless of whether that evidence was admitted erroneously.”
McDaniel v. Brown, 558 IJ.S. 120. 131 (2010) (per curiam) (internal quotation marks
omitted); United States v. Simpson, 910 F.2d 154. 159 (4th Cir. 1990). Precedent thus
forecloses Littlejohn’s contention that this court may disregard the DNA evidence admitted
at trial in assessing evidentiary sufficiency.
Littlejohn also contends that DNA evidence admitted at trial was not corroborated
by sufficiently credible evidence and that the remaining evidence submitted by the
Government was insufficient because the jury had reasons not to believe it in whole or in
4

£

USCA4 Appeal: 19-4344

Doc: 37

Filed:. 02/11/2020

Pg:5of9

part. In assessing whether substantial evidence is present, however, this court is “not
entitled to assess witness credibility, and we assume that the jury resolved any conflicting
evidence in the prosecution’s favor.” United States v. Savage, 885 F.3d 212.219 (4th Cir.)
(internal quotation marks omitted), cert, denied, 139 S. Ct. 238 (2018). Further, the
Government was not required to introduce extrinsic evidence corroborating the testimony
of its expert witness regarding the DNA analyses performed in this case. See id.; United
States v. Wilson, 115 F.3d 1185. 1190 (4th Cir. 1997). These arguments thus do not
establish any error in the jury’s verdict.
Considering all the evidence admitted at trial, we conclude that it is sufficient to
support Littlejohn’s convictions. See United States v. Reed, 780 F.3d 260. 271 (4th Cir.
2015) (stating elements of Hobbs Act robbery); United States v. Strayhorn, 743 F.3d 917.
922.925 (4th Cir. 2014) (stating elements of Hobbs Act conspiracy and § 924(c)(1) firearm
charge); see also 18 TJ.S.C. §924tcV'41 (defining brandishing); 18 U.S.C. § 2(al
(addressing liability for aiding and abetting); United States v. Tillery, 702 F.3d 170. 174
(4th Cir. 2012) (addressing jurisdictional element of Hobbs Act robbery). Littlejohn thus
has not established error in the jury’s verdict on the basis of evidentiary insufficiency, and
this challenge fails on the first prong of plain error review.
Littlejohn next makes three arguments challenging the DNA evidence. He argues
that the district court erred in admitting the February 5, 2018, certificate of analysis
generated by the forensic scientist after she compared a DNA mixture profile she generated
with a DNA databank because his inclusion in the databank, “highlighted by his
Department of Corrections identifying numbers on the [certificate], identified him as a
5

USCA4 Appeal: 19-4344

Doc: 37

Filed: 02/11/2020

Pg:6of9

convicted felon.” Reviewing this claim for plain error because Littlejohn never raised it
below, Walker, 934 F.3d at 377-78. we conclude it fails at the first prong of plain error
review because the predicate undergirding it—that the February 5 certificate identified him
as a convicted felon—is not established. The certificate says nothing about Littlejohn’s
status as a convicted felon; nothing about how, if at all, the DNA databank is tied to a
person’s status as a convicted felon; and nothing about how numbers on the certificate are
tied, if at all, to a person’s status as a convicted felon. If the certificate indeed contains
“Department of Corrections identifying numbers” connected to Littlejohn as he claims, he
has not specified where these numbers are. Moreover, the Government never adduced any
evidence or argued at trial that Littlejohn had been convicted of a felony, and Littlejohn
wholly fails to explain why the February 5 certificate would support such an inference in
this case. Littlejohn thus has not demonstrated plain error in this regard.
Littlejohn also argues that the district court erred in admitting the March 30, 2018,
certificate of analysis because it contained an erroneous statistical analysis. We need not
address the merits of this argument because Littlejohn invited the claimed error.
See Mathis, 932 F.3d at 257. “The invited error doctrine recognizes that a court cannot be
asked by counsel to take a step in a case and later be convicted of error, because it has
complied with such request.” United States v. Jackson, 124 F.3d 607. 617 (4th Cir. 1997)
(internal quotation marks omitted). Here, at the pretrial hearing on Littlejohn’s motion to
exclude the certificate, the Government proposed that it not be admitted into evidence and
that a May 23, 2018, amended certificate of analysis generated to correct the statistical
error in the March 30 certificate be admitted in its place. Littlejohn, however, declined this
6

USCA4 Appeal: 19-4344

Doc: 37

Filed:, 02/11/2020

Pg:7of9

proposed course of action, and urged that, if the district court was going to admit the May
23 certificate and the February 5 certificate, then those two certificates and the March 30
certificate needed to be admitted. The district court denied Littlejohn’s motion to exclude
and allowed all three certificates to be admitted into evidence. Thus, even if the admission
of the March 30 certificate was improper, Littlejohn “could have cured any such error [with
respect to the admission of the March 30 certificate by agreeing in part to the Government’s
proposal] but did not.” Mathis, 932 F.3d at 258. The invited error doctrine therefore
applies, id.; United States v. Lespier, 725 F.3d 437. 445-46. 449-51 (4th Cir. 2013), and
we decline to address the merits of this claim.2
Littlejohn further contends more generally that the admission of DNA evidence was
prejudicial because the Government engaged in the so-called prosecutor’s fallacy by
arguing incorrectly that DNA found on the ski mask recovered near the site of the robbery
belonged to him. Reviewing this claim for plain error because Littlejohn never raised it
below, Walker, 934 F.3d at 377-78. we reject it.
“The prosecutor’s fallacy is the assumption that the random match probability is the
same as the probability that the defendant was not the source of the DNA sample” at issue.
Brown, 5581J.S. at 128. Such faulty reasoning “may result in an erroneous statement that,
based on a random match probability of 1 in 10,000, there is a 0.01% chance the defendant
is innocent or a 99.99% chance the defendant is guilty.” Id. In this case, the forensic

2 Littlejohn has not argued that an exception to the invited error doctrine,
see Lespier, 725 F.3d at 450-51. applies.
7

USCA4 Appeal: 19-4344

Doc: 37

Riled:,02/11/2020

Pg:8of9

scientist gave expert opinion testimony regarding the probability of selecting an unrelated
individual who would be included as a major contributor of the DNA in the DNA profile
she generated from the ski mask, not the probability of Littlejohn’s guilt or innocence.
Moreover, although counsel for the Government indeed argued as part of closing
arguments that, based on the DNA evidence adduced, the DNA found on the ski mask was
Littlejohn’s, that argument was not improper, see United States v. Francisco, 35 F.3d 116.
120 (4th Cir. 1994) (per curiam) (“[Cjlosing argument is not merely a time for recitation
of uncontroverted facts, but rather the prosecution may make fair inferences from the
evidence.”), or prejudicial to Littlejohn’s substantial rights, see United States v. Lighty,
616 F.3d 321. 361-62 (4th Cir. 2010). Plain error in this regard warranting vacatur of
Littlejohn’s convictions has thus not been established.
Littlejohn also argues that the admission into evidence of witness Katherine Gavin’s
statement of opinion was erroneous and that the admission had a prejudicial effect on the
jury’s verdict, warranting vacatur of his convictions. Littlejohn, however, did not present
this claim in accordance with Fed. R. App. P. 28faY8¥A>) (“[T]he [appellant’s]
argument... must contain ... appellant’s contentions and the reasons for them, with
citations to the authorities and parts of the record on which the appellant relies.”).
We therefore deem it abandoned. See EEOC v. Md. Ins. Admin., 879 F.3d 114. 122 n.10
(4th Cir. 2018); Jacobs v. N.C. Admin. Office ofthe Courts, 780 F.3d 562. 568 n.7 (4th Cir.
2015).
Finally, Littlejohn challenges the computation of his criminal history points under
the Sentencing Guidelines, claiming that the district court erred in assessing criminal
8

USCA4 Appeal: 19-4344

Doc: 37

•.Filed; 02/11/2020

Pg:9of9

history points under IISSG § 4A1.UeV This court “determine[s] whether a district court’s
Guidelines calculation was proper by reviewing that court’s factual findings for clear error
and its legal conclusions de novo.

United States v. Dodd, 770 F.3d 306. 309 (4th Cir.

2014) (internal quotation marks omitted). We conclude that the district court did not err in
assessing the disputed criminal history points, see USSG § 4Al.ltel (directing that one
point be added for each prior sentence resulting from a conviction of a crime of violence
that did not receive points under USSG S 4A1 .Ual because such sentence was treated as a
single sentence); United States v. Scott, 654 F.3d 552. 557 (5th Cir. 2011), and reject
Littlejohn’s inapposite arguments to the contrary.
We therefore affirm the criminal judgment. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

9

USCA4 Appeal: 19-4344

Filed: 06/15/2020

Doc: 47

Pg: 1 of 1

FILED: June 15, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4344
(2:18-cr-00119-RBS-LRL-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
DESMOND LITTLEJOHN
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Niemeyer, Judge Thacker, and
Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

